No. 19-802

IN THE

Supreme Court of the United States
DAVID EHRMAN, Individually
and on Behalf of All Others Similarly Situated,

Petitioner,
v.
COX COMMUNICATIONS, INC.; COXCOM, LLC; and
COX COMMUNICATIONS CALIFORNIA, LLC,

Respondent.
CERTIFICATE OF SERVICE

Pursuant to Rule 29.5 of the Rules of this Court, I certify that all parties
required to be served have been served. On January 9, 2020, I caused a copy of a
Letter to the Clerk Requesting Extension To File Response to Certiorari Petition to
be served by first-class mail, postage prepaid; through the Court’s electronic filing
system on those registered with the system; and by electronic mail (as designated)
on the following:
Jamin S. Soderstrom, Esq.
SODERSTROM LAW PC
3 Park Plaza, Suite 100
Irvine, CA 92614
(949) 667-4700
jamin@soderstromlawfirm.com

Counsel for Petitioner

Gunnar Gundersen, Esq.
GUNDERSEN & GUNDERSEN LLP
5000 Birch Street, West Tower, Suite 3000
Newport Beach, CA 92660
(949) 467-9244
gunnar.gundersen@gundersen-law.com

Counsel for Petitioner

Katharine Van Dusen

Counsel for Respondents
08277.055 4839-6572-1008.1

